     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, S.W., Suite 3T41
                                                                          Atlanta, GA 30303

October 29, 2009

Report Number: A-04-08-07006

Ms. Patricia Casanova
Director of Medicaid
Indiana Family and Social Services Administration
402 W. Washington Street, W461
Indianapolis, Indiana 46204-2739

Dear Ms. Casanova:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Follow-up Review of the Medicaid Drug Rebate Program in
Indiana.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise Rivera Novak, Audit Manager, at (305) 536-5309, extension 10, or through email
at Denise.Novak@oig.hhs.gov. Please refer to report number A-04-08-07006 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia Casanova


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   FOLLOW-UP REVIEW OF THE
    MEDICAID DRUG REBATE
     PROGRAM IN INDIANA




                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-04-08-07006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In Indiana, the Indiana Family and Social Services Administration (the
State agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all of the
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Indiana drug rebate program (A-05-03-00043), we determined that
the State agency generally had established policies and procedures over operations of the drug
rebate program. However, the controls in place to comply with program reporting requirements
were inadequate. Specifically, the State agency submitted a Medicaid Drug Rebate Schedule
(Form CMS-64.9R) that contained mathematical errors and inaccuracies. In addition, the State
agency did not verify or reconcile reported amounts to supporting records. Furthermore, the
State agency did not have controls to ensure all necessary unit and rate conversions were
performed to accurately calculate the Medicaid drug rebate accounts receivable. We
recommended that the State agency:

   	 submit a revised Form CMS-64.9R that corrects inaccurate and misstated amounts,

   	 establish controls and implement oversight procedures for the Form CMS-64.9R report
      preparation process that includes verification of fiscal agent-prepared amounts and
      reconciliation of the State agency rebate accounts receivable to the fiscal agent’s
      supporting records, and

   	 establish controls and implement oversight to ensure all necessary Medicaid drug rebate
      unit and rate conversions conform to Federal financial reporting standards.

The State agency agreed with our findings and recommendations.

This current review of Indiana is part of a nationwide series of reviews conducted to determine
whether States have addressed the weaknesses in accountability for and internal controls over
their drug rebate programs found in the previous reviews. Additionally, because the Deficit
Reduction Act of 2005 required States, as of January 1, 2006, to begin collecting rebates on




                                                i
single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Indiana drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

The State agency implemented two of the three recommendations from our previous audit.
However, the State agency had not fully established controls or implemented oversight
procedures for the Form CMS-64.9R report preparation process that included verification of
fiscal agent-prepared amounts and reconciliation of the State agency rebate accounts receivable
to the fiscal agent’s supporting records. Additionally, the fiscal agent, Affiliated Computer
Services, did not maintain adequate supporting documentation for the accounts receivable
balances it reported on the Form CMS-64.9R. As a result, the State agency had no assurance that
the balances on the Form CMS-64.9R report as of June 30, 2006, were accurate.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

RECOMMENDATION

We recommend that the State agency establish and implement procedures to ensure that it
maintains documentation that supports and reconciles to all accounts receivable amounts on the
Form CMS-64.9R.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency listed preventive controls and
procedures it was implementing to follow our recommendation. The complete text of the State
agency’s comments is included in its entirety as the Appendix.




                                                ii
                                                       TABLE OF CONTENTS 




INTRODUCTION............................................................................................................. 1 


     BACKGROUND .......................................................................................................... 1 

       Drug Rebate Program .................................................................. .. ......................... 1 

       Physician-Administered Drugs ............................................................................... 1 

       Previous Office of Inspector General Reports ................ ... ..................... ... ............. 2 

       Indiana Drug Rebate Program ................................................................................ 3 


     OBJECTIVES, SCOPE, AND METHODOLOGY ................... ...... .... ............... .......... 3 

       Objectives ............................................................................................................... 3 

       Scope ............................... ... ..................... ... ..................... ... ..................... ... ............. 3 

       Methodology ........................................................................................................... 3 


FINDINGS AND RECOMMENDATION...................................................................... 4 


     IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS ............ .... ............. .4 


     PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ........ .. .............. ........... 5 


     RECOMMENDATION ................................................................................................ 5 


     STATE AGENCY COMMENTS ................................................................................. 5 


APPENDIX 


     STATE AGENCY COMMENTS 





                                                                           111
                                             INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Indiana, the Indiana Family and Social Services
Administration (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This form is part of Form
CMS-64, “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,”
which summarizes actual Medicaid expenditures for each quarter and is used by CMS to
reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927(a) of the Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1

In Indiana, physician-administered drugs are billed to the State Medicaid program on a physician
claim form using procedure codes that are part of the Healthcare Common Procedure Coding
System. The NDC is not included on the physician claim form. The procedure code identifies a
drug by its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).
Therefore, to determine rebates, the procedure codes must be converted into NDCs for single
source drugs and procedure code billing units must be converted into equivalent NDC billing
units.

Previous Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Indiana drug rebate program, we determined that the State agency
generally had established policies and procedures over operations of the drug rebate program.
However, the controls in place to comply with program reporting requirements were inadequate.
Specifically, the State agency submitted a Medicaid Drug Rebate Schedule (Form CMS-64.9R)
that contained mathematical errors and inaccuracies. In addition, the State agency did not verify
or reconcile reported amounts to supporting records. Furthermore, the State agency did not have
controls to ensure all necessary unit and rate conversions were performed to accurately calculate
the Medicaid drug rebate accounts receivable. We recommended that the State agency:

    	 submit a revised Form CMS-64.9R that corrects inaccurate and misstated amounts,

    	 establish controls and implement oversight procedures for the Form CMS-64.9R report
       preparation process that includes verification of fiscal agent-prepared amounts and
       reconciliation of the State agency rebate accounts receivable to the fiscal agent’s
       supporting records, and

    	 establish controls and implement oversight to ensure all necessary Medicaid drug rebate
       unit and rate conversions conform to Federal financial reporting standards.

The State agency agreed with our findings and recommendations.




2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.


                                                      2

Indiana Drug Rebate Program

The State agency contracts with its fiscal agent, Affiliated Computer Services (ACS), to perform
all drug rebate program functions. The fiscal agent’s responsibilities include creating and
sending invoices to manufacturers, collection, CMS reporting, and accounting for rebates on
single source drugs administered by physicians. In addition, the fiscal agent converts the
procedure code billing units into equivalent NDC billing units.

The State agency reported an outstanding drug rebate balance of $35,304,825 on its June 30,
2006, Form CMS-64.9R. However, $18,964,122 of this amount related to quarterly billings and
was not past due as of June 30, 2006. Of the remaining $16,340,703 that was past due,
$6,521,991 was more than 1 year old. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of approximately $283.5 million and collections of $220.5 million.

This current review of the Indiana drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the DRA required States, as of January 1, 2006, to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Indiana drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We conducted our fieldwork at the State agency’s fiscal agent in Atlanta, Georgia.

Methodology

To accomplish our objectives, we:

   	 reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
      State Medicaid directors, and other information pertaining to the Medicaid drug rebate
      program;




                                                3

   	 reviewed the policies and procedures related to the fiscal agent’s drug rebate accounts
      receivable system;

   	 interviewed a State agency official and fiscal agent staff to determine the policies, 

      procedures, and controls that related to the Medicaid drug rebate program;


   	 reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   	 interviewed fiscal agent staff to determine the processes used in converting physician
      services claims data into drug rebate data related to single source drugs administered by
      physicians; and

   	 reviewed rebate billings and reimbursements for procedure codes related to single source
      drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

The State agency implemented two of the three recommendations from our previous audit.
However, the State agency had not fully established controls or implemented oversight
procedures for the Form CMS-64.9R report preparation process that included verification of
fiscal agent-prepared amounts and reconciliation of the State agency rebate accounts receivable
to the fiscal agent’s supporting records. Additionally, ACS did not maintain adequate supporting
documentation for the accounts receivable balances it reported on the Form CMS-64.9R. As a
result, the State agency had no assurance that the balances on the Form CMS-64.9R report as of
June 30, 2006, were accurate.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS

In our previous audit of the Indiana drug rebate program, we determined that the State agency
did not submit an accurate Form CMS-64.9R. In addition, the State agency did not verify the
accuracy of amounts reported on Form CMS-64.9R or reconcile reported amounts to supporting
records. Furthermore, the State agency did not have controls to ensure all necessary unit and rate
conversions were performed to accurately calculate the Medicaid drug rebate accounts
receivable.

Since our previous audit, the State agency submitted a revised Form CMS-64.9R, which
corrected inaccurate and misstated amounts cited in our prior report, and had established controls


                                                4

and implemented oversight to ensure all necessary Medicaid drug rebate unit and rate
conversions conform to Federal financial reporting standards. However, the State agency still
had not fully established controls or implemented oversight procedures for the Form CMS-64.9R
report preparation process that included verification of fiscal agent-prepared amounts and
reconciliation of the State agency rebate accounts receivable to the fiscal agent’s supporting
records.

Pursuant to 45 CFR § 92.20(b)(3), States are required to provide for effective control over and
accountability of all funds, property, and other assets. The State agency contracted with ACS to
perform all of the drug rebate functions, including reporting accounts receivable amounts on the
Form CMS-64.9R. During the time of our review, ACS did not maintain subsidiary ledgers or
other documentation to support the outstanding accounts receivable balances. ACS did maintain
documentation to support data entered on the Form CMS-64.9R, such as rebates invoiced and
payments received from manufacturers for the quarterly period ended June 30, 2006. However,
ACS had no documentation to support the ending balances on the Form CMS-64.9R.
Consequently, if a typographical data entry error occurs during the report preparation process, or
if the beginning balances are incorrect, then the lack of a periodic reconciliation process would
not detect an inaccurate accounts receivable balance.

Additionally, the State agency had no controls or procedures to verify the accuracy of the
outstanding accounts receivable amounts reported on Form CMS-64.9R or to reconcile those
reported amounts to supporting records. As a result, the State agency had no assurance that the
balances on the Form CMS-64.9R report were accurate.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $25,764,366 in
claims for physician-administered drugs during the January through June 2006 period and billed
manufacturers for rebates totaling $5,777,534.

RECOMMENDATION

We recommend that the State agency establish and implement procedures to ensure that it
maintains documentation that supports and reconciles to all accounts receivable amounts on the
Form CMS-64.9R.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency listed preventive controls and
procedures it was implementing to follow our recommendation. The complete text of the State
agency’s comments is included in its entirety as the Appendix.




                                                5

APPENDIX 

                    APPENDIX: STATE AGENCY COMMENTS 





                                                                                      MiIeI*l E. Danoels. Jr, GoYwnor
                                                                                                      SI ~te 01 Indiana

                                                                        Office of Medicaid Policy and Pfanning
                                                                     MS07. 402 W. WASHINGTON STREET. ROOM W38 2
                                                                                     INOIANAPOliS. IN 4 6204·2739




July 23, 2009


Mr. Peler J. Barbera
Regional Inspector General for Audit Services
Office of Irl'lpector General
Office of Audit Services
Department ofHeaJth and Human Services-Region IV
61 Forsyth Street, S.W., Suite 3T4 1
A Ilanl4, Georgia 30303

RE:      Follow Up Review of the Medicaid Drug Rebate Program
         (Report number A04'()8-07006)

Dear Mr. Barbera:

This letter i! in response to the Office ofInspectOr Genel1l.l (010) draft report titled, "Follow-Up Review o/the
Medicaid Drug Rebate Program in Indiana dated May 2009. We have reviewed the report, and the
                                                H


following is the response of the Office of Medicaid Policy and Planning (OMPP) 10 the recommendation
contained in the repon.

Recommend ation : Esta blisb aud implement procedu res to eluure the State m llntah:l doc umentatio n to
s upport a nd r eco nci le 111 accoun ts receivable amounts on the Form C M5-64.9R.

The OMPP has reviewed the above referenced OIG report. A s a result of the audit report, OMPP has
implemented preventive controls to erl'lUfC proper reporting on the CMS64,9R. Management reconciles ACS
reports to drug rebales invoiced and to accounts receivab le balances reported on "'ann 64·9R. The State
utilizes DRAMS, the ACS system for processing drog rebales, 10 validate and monitor the details of in voicing,
adjusuncnts and receivables summarized on the Form 64-9R.

The OMPP, ACS and the fiscal agent, IDS continue to work toward a complete reconciliation OflllJlounts
received by the PBM to those transferred to the fiscal agent 10 offsel Medicaid expenditures.

We appreciate the opportunity to comment on the draft report, and hope that you find our responses 10 be
helpful to you in finalizing the report. Should you or your staff have any questions regarding this response
Jetter. please contact Man: Shirley, R.Ph., Pharmacy Operations Manager for OMPP. He may be reached at
(3 17) 232....343 or !!U!ffishirley@fssa.in.gov .



Sincerely,

.j)!!u~
Patricia Casanova
Director of Medicaid
                                                      www.lN.p/lsu
                                        Oppot''''""''' I AI' i,""";'" ActioII E~
                                    EQIIIII
                                       ~ _ '-coHSI.IIoIEA FlIIfR 6;;;;
                                              3OlO.
